App. 1
949 F.3d 533 (2020)
United States Court of Appeals, Tenth Circuit.
UNITED STATES of America, EX REL.
Stacey L. JANSSEN, as Special Administrator
of the Estate of Megen Corin Duffy,
Plaintiff Counter Defendant-Appellant,
v.
LAWRENCE MEMORIAL HOSPITAL,
Defendant-Appellee.
No. 19-3011
|
FILED February 7, 2020
Anthony E. LaCroix, LaCroix Law Firm, LLC (Theodore
J. Lickteig, Law Office of Theodore J. Lickteig, Lenexa,
Kansas, Sarah A. Brown, Brown and Curry, LLC, Kansas City, Missouri, and Robert K. Collins, Collins Law
Office, LLC, Olathe, Kansas, with him on the briefs),
Kansas City, Missouri, for Appellant.
Andrew W. Lester (Mark A. Cole, Andrew R. Ramirez,
and Kathryn G. Lee, with him on the brief ), Spencer
Fane LLP, Overland Park, Kansas, for Appellee.
Before TYMKOVICH, Chief Judge, MURPHY, and
CARSON, Circuit Judges.
TYMKOVICH, Chief Judge.
In this False Claims Act case, Stacey Janssen alleges Lawrence Memorial Hospital engaged in two
healthcare schemes to fraudulently receive money
from the United States. Janssen first contends LMH
falsified patients’ arrival times in order to increase

App. 2
its Medicare reimbursement under certain pay-forreporting and pay-for-performance programs the Government uses to study and improve hospitals’ quality
of care. Next, Janssen contends LMH falsely certified
compliance with the Deficit Reduction Act in order to
receive Medicare reimbursements to which it was otherwise not entitled.
LMH moved for summary judgment below, arguing Janssen failed to show her allegations satisfied the
Act’s materiality requirement—that the alleged falsehoods influenced the Government’s payment decision
as required under the FCA. The district court granted
LMH summary judgment on all of Janssen’s claims on
this basis, and we AFFIRM.
I.

Background

We first explain the fraud schemes alleged in the
complaint and then discuss the procedural background
relevant to the legal issues on appeal.
A. LMH’s Alleged Fraud Schemes
Janssen claims LMH engaged in two fraudulent
schemes. The first concerns LMH’s alleged falsification
of patients’ arrival times. The second centers on LMH’s
false certification of compliance with the Deficit Reduction Act.

App. 3
1. Falsification of Patients’ Arrival Times
LMH contracts with the Centers for Medicare and
Medicaid Services (CMS) to provide services to Medicare patients. CMS pays LMH for services based on
pre-determined rates. These rates are affected by certain programs, including the Inpatient Quality Reporting (IQR) program, the Outpatient Quality Reporting
(OQR) program, and the Hospital Value Based Purchasing (HVBP) program. To varying degrees, each of
these programs rely on measures that incorporate patients’ arrival times. The arrival time data is considered because it helps the Government analyze the
timeliness of the care patients receive.
a. The IQR, OQR, and HVBP Programs
The IQR program is a pay-for-reporting program.
Under this program, hospitals report certain designated quality measures regarding inpatient care. In
exchange for timely and accurately reporting, hospitals receive an annual increase—what is termed a
“market basket index increase”—n the rate at which
they are reimbursed under Medicare. See 42 C.F.R.
§ 412.64. Those hospitals that fail to submit accurate
data on a timely basis have their market basket index
increase reduced.1 Id. at (d)(2).

1

For fiscal years 2007 through 2014, non-compliant hospitals’ increases were reduced by 2 percent. 42 C.F.R.
§ 412.64(d)(2)(i)(B). For fiscal years 2015 and later, noncompliant
hospitals’ increases were reduced by one-fourth. 42 C.F.R.
§ 412.64(d)(2)(i)(C).

App. 4
The OQR program operates similarly to the IQR
program, except it relates to out-patient, as opposed to
inpatient, care. Hospitals must report certain quality
measures regarding outpatient care under the program. In exchange for accurate and timely data, hospitals protect their annual market basket index increase
from reduction.
For both the IQR and OQR programs, LMH understands that submitting accurate and complete data
was a condition of receiving its full market basket index increase. For the IQR program, LMH also submits
Data Accuracy and Completeness Acknowledgments
on an annual basis certifying that the data submitted
is “accurate and complete.” App. at 2608.
The HVBP program is a pay-for-performance program. It operates as an incentive program based on
hospitals’ relative performance on a subset of IQR
measures. Unlike the IQR and OQR programs—which
reward the mere submission of data to CMS without
regard for the substantive content of that data—the
HVBP program considers how well or poorly hospitals
performed compared to their peers. Under this program, CMS withholds a percentage from the total annual Medicare payments due to all participating
hospitals and redistributes these funds according to
each hospital’s performance score. A hospital’s performance score is calculated based on four different domains. Each domain has a number of different
measures within it. Accordingly, during the relevant
time period, LMH’s performance on certain IQR
measures affected its overall HVBP performance score,

App. 5
which in turn impacted its Medicare reimbursement
rate.
The healthcare measures used in the IQR, OQR,
and HVBP programs change from year to year. During
the relevant period some, but not all, of these measures
incorporated patients’ arrival times. For example, the
only measures in the HVBP program that incorporated
arrival times were AMI-7a (fribrinolytic therapy received within 30 minutes of hospital arrival) and AMI8a (primary surgical intervention received within 90
minutes of hospital arrival). In fiscal year 2015, these
constituted two out of twelve measures contributing to
LMH’s Clinical Process of Care Domain score—one of
four domain scores that contributed to LMH’s overall
HVBP performance score. Similarly, of the measures
utilized by the IQR and OQR programs, only a subset
include arrival times.2 Moreover, for certain periods,

2

At oral argument, counsel for Janssen responded to a question regarding the extent each program utilized arrival times:
Q: How many other of the metrics employ the arrival
time?
A: I don’t have a dispositive number for you there,
your honor. . . .
Q: Is it like two of three employed arrival time or is it
two of twenty?
A: I think it’s probably, on the inpatient side, it may
be two or three of eighteen . . . and on the outpatient
side there are a few more.
Oral Argument Recording, 32:02–33:00, Nov. 11, 2019.

App. 6
LMH did not report any data for even those measures
that incorporate arrival times.3
LMH reports data for the IQR and OQR programs
to CMS either through automatically generated reports or by “abstracting” the data from patient charts.
Abstraction is performed using Specifications Manuals
promulgated by CMS. Abstractors do not, and cannot,
alter data or patient records, nor do they investigate
the accuracy of the data. Thus, for both forms of reporting, any inaccuracies in patients’ records are simply
carried over to the data reported to CMS.
b. Reporting False Patient Arrival Times
Under the IQR and OQR programs, LMH must report a patient’s arrival time as the earliest time shown
among a variety of documentation, including the patient’s triage record or emergency department fact
sheets.4 As the district court notes in its order granting
3

For example, for fiscal year 2015, LMH did not report any
data with respect to AMI-7a because it had no relevant cases.
App. at 3435.
4
According to CMS Specifications Manuals, arrival time is
“the earliest documented time the patient arrived” at the hospital
emergency department or as an outpatient. App. at 255. This may
be gleaned from a number of acceptable sources, including (1) any
emergency department documentation; (2) nursing admission assessment/admitting note; (3) observation record; (4) procedure
notes; and (5) vital sign graphics record. Id. at 265. As of July 1,
2012, CMS defined emergency department documentation to include “any documentation from the time period that the patient
was an ED patient e.g., ED fact sheet, ED consent/Authorization
for treatment forms, ED/Outpatient Registration/sign-in forms,
ED vital sign record, triage record, ED physician orders, ECG

App. 7
summary judgment, numerous pieces of evidence in
the record support the contention that “LMH knowingly falsified patient records with the intent of causing abstracted ‘arrival times’ to be later than they
would have been absent the falsification.” App. at 3641.
For example, the former director of LMH’s Emergency Department testified that LMH used “interim
forms” and “triage sheets” to record patient arrival
times but later discarded these forms so that the recorded arrival times did not enter the patient’s hospital
record. App. at 814–16. A former registration clerk in
LMH’s Emergency Department also declared that she
was trained and instructed to delay registration of patients until after the administration of electrocardiograms (EKGs) so that the arrival time on the patient’s
record was synonymous with their EKG time. She also
declared that LMH altered patients’ arrival times to
match EKG times in order to obtain Medicare compensation. Id. at 1369.
Certain statistics are consistent with these assertions. Between 2010 and 2017, LMH reported a total of
17,714 records that incorporated “arrival time” as part
of the IQR program. App. at 2606. For 15.89% of these
records, the patient’s arrival time was either the same
as or later than a recorded EKG time. Id. During the
same period, LMH reported 8,672 records to CMS that
incorporated arrival time as part of the OQR program.
Id. Of these, 4.09% contained an arrival time that was
reports, telemetry rhythm strips, laboratory reports, x-ray reports.” Id. at 313.

App. 8
either the same as or later than a recorded EKG time.
Id. Moreover, from the second quarter of 2008 through
the last quarter of 2010, LMH frequently reported a
median arrival-to-EKG time of more than eight
minutes and never reported a time below three
minutes. Id. at 948. But beginning in the first quarter
of 2011, LMH began frequently reporting a median arrival-to-EKG time of zero or one minute. Id.
A reasonable inference from this testimonial and
statistical evidence is that LMH falsified certain patient arrival times and reported some inaccuracies to
CMS through the IQR and OQR programs. But the record is silent as to the extent LMH’s alleged falsification
of arrival times affected the accuracy of its IQR and
OQR reporting or its HVBP performance score.5
2. False Certification of Compliance with
the Deficit Reduction Act
As a condition of receiving more than $5 million
each year from Medicare, LMH must comply with Section 6032 of the Deficit Reduction Act. Section 6032
requires LMH to educate its employees with detailed
information regarding the False Claims Act. See 42
U.S.C. § 1396a(a)(68). Among other things, Section
6032 requires that “any employee handbook” include
“specific discussion” of “detailed information about the
False Claims Act . . . administrative remedies for false
5

As Janssen concedes, “there is little evidence of the precise
degree to which each measure is off is solely a function of LMH’s
scheme.” Aplt. Br. at 59.

App. 9
claims and statements . . . any State laws pertaining
to civil or criminal penalties for false claims and statements, and whistleblower protections under such laws,
with respect to the role of such laws in preventing and
detecting fraud, waste, and abuse in Federal health
care programs. . . .” Id.
From 2007 to 2016, LMH’s New Associate Resource Handbooks lacked detailed discussion of the
FCA, although these sources were supplemented with
additional training and informational materials.
LMH also signed Attestations of Compliance for at
least fiscal years ending September 30, 2014 through
2017. Each attestation states that “as a condition for
receiving payments exceeding $5 million per federal
fiscal year” the executor has “examined” LMH’s policies
and procedures and read Section 6032 of the Deficit
Reduction Act. App. at 1707, 1714. Each further certifies that LMH is in compliance with the requirements
of Section 6032.
For the fiscal years ending September 30, 2016
and 2017, the executors of LMH’s attestations testified
that they signed the forms without engaging in the activities to which they attested. Specifically, LMH’s
Chief Financial Officer executed the attestation for the
fiscal year ending September 30, 2016, and testified
that he did so without reviewing any educational materials distributed to employees. Id. at 1704. LMH’s
Chief Operating Officer executed the attestation for
the year ending September 30, 2017, and testified that

App. 10
she did so without reviewing any policies or procedures. Id. at 1722.
B. Procedural and Investigatory History
In November 2013, the original Relator in this action, Megen Duffy,6 called a CMS hotline to report
LMH for alleged Medicare fraud. NCI AdvanceMed
(NCI), a third-party investigative service for CMS,
subsequently began investigating the allegations, including the claim that LMH committed fraud by “manipulating their door-to-EKG times” so as to “avoid
losing money as a result of a reduced Medicare reimbursement.” App. at 2534.
On May 30, 2014, Duffy filed her initial complaint.
On June 16, 2015, she filed her second amended complaint. The Department of Justice received each, and
sought additional time to consider intervention, stating it “assembled an investigative team and commenced an investigation.” Supp. App. at 1. The DOJ
notified the Health and Human Services Office of Inspector General, interviewed Duffy, and expressed interest in “thoroughly review[ing] and analyz[ing]” the
allegations. Id. at 2. Ultimately, the DOJ opted not to
intervene.
Around August 2014, NCI closed the investigation,
noting “CMS is aware of quality issue.” Id. at 2542. To
6

On October 26, 2018, the district court ordered Stacey L.
Janssen, the Special Administrator of Duffy’s estate, substituted
as the quitam Relator.

App. 11
date, CMS has not taken any action with respect to
LMH. It has not ceased paying the Medicare claims
that LMH continues to submit or asked LMH to adjust
its reporting practices under the IQR, OQR, or HVBP
programs.
After several years of litigation, LMH moved twice
for summary judgment. The district court denied the
first motion, which was filed before the close of discovery. The district court granted the second motion. With
respect to both alleged fraud schemes, the district
court held Janssen failed to raise a genuine issue of
material fact with respect to the materiality of the alleged falsehoods. This appeal followed.
II.

Analysis

Janssen brings the present claims under 31 U.S.C.
§§ 3729(a)(1)(A), (B), and (G).7 To show a false claim,
Janssen must establish (1) a false statement or fraudulent course of conduct; (2) made with the requisite
7

Subsection (A) creates liability for anyone who “knowingly
presents, or causes to be presented, a false or fraudulent claim for
payment or approval.” 31 U.S.C. § 3729(a)(1)(A). Subsection (B)
creates liability for anyone who “knowingly makes, uses, or
causes to be made or used, a false record or statement material to
a false or fraudulent claim.” Id. at § 3729(a)(1)(B). Subsection (G),
sometimes referred to as the reverse false claims section, creates
liability for anyone who “knowingly makes, uses, or causes to be
made or used, a false record or statement material to an obligation to pay or transmit money or property to the Government, or
knowingly conceals or knowingly and improperly avoids or decreases an obligation to pay or transmit money or property to the
Government.” Id. at § 3729(a)(1)(G).

App. 12
scienter; (3) that is material; and (4) that results in a
claim to the Government or conceals, decreases, or
avoids an obligation to pay the Government. See U.S.
ex rel. Polukoff v. St. Mark’s Hosp., 895 F.3d 730, 734
(10th Cir. 2018). Here, the focus is on materiality, a required element under each of the provisions Janssen
relies on. See 31 U.S.C. §§ 3729(a)(1)(A), (B), and (G);
Univ. Health Servs., Inc. v. U.S. ex rel. Escobar, ___ U.S.
___, 136 S. Ct. 1989, 1996, 195 L.Ed.2d 348 (2016).8
Materiality is a mixed question of law and fact that can
be decided as a matter of law if reasonable minds could
not differ on the question. See Long v. Ins. Co. of N. Am.,
670 F.2d 930, 934 (10th Cir. 1982). We review the district court’s grant of summary judgment de novo, applying the same standard as the district court.
Smothers v. Solvay Chems., 740 F.3d 530, 538 (10th Cir.
2014).

8

With respect to 31 U.S.C. §§ 3279(a)(1)(B) and (G), this requirement is explicitly included in the text of the statute. With
respect to 31 U.S.C. § 3729(a)(1)(A), the Supreme Court has unequivocally stated a materiality requirement exists. See Escobar,
136 S. Ct. at 2001–02. The parties do not advance, and we do not
take, any position with respect to whether any distinctions exist
between the materiality requirements applicable to each subsection. For purposes of this appeal, any such distinctions are irrelevant as Janssen fails to meet any conception of materiality. See
Escobar, 136 S. Ct. at 2002 (declining to decide whether
“§ 3729(a)(1)(A)’s materiality requirement is governed by
§ 3729(b)(4) or derived directly from the common law” because
“[u]nder any understanding of the concept, materiality ‘look[s] to
the effect on the likely or actual behavior of the recipient of the
alleged misrepresentation.’“).

App. 13
A. Legal Framework
When originally enacted in 1863, the FCA aimed
to stop “massive frauds perpetrated by large contractors during the Civil War.” United States v. Bornstein,
423 U.S. 303, 309, 96 S.Ct. 523, 46 L.Ed.2d 514 (1976).
Today, the FCA’s focus “remains on those who present
or directly induce the submission of false or fraudulent
claims” to the Government. Escobar, 136 S. Ct. at 1996.
But the FCA does not impose liability for any and all
falsehoods. Id.; see also 31 U.S.C § 3729(a)(1)(A) et seq.
Simply put, the FCA is not an “all-purpose antifraud
statute or a vehicle for punishing garden-variety
breaches of contract or regulatory violations.” Escobar,
136 S. Ct. at 2003 (citations omitted); U.S. ex rel Burlbaw v. Orenduff, 548 F.3d 931, 959 (10th Cir. 2008)
(“The FCA is not an appropriate vehicle for policing
technical compliance with administrative regulations.”
(quoting U.S. ex rel. Lamers v. City of Green Bay, 168
F.3d 1013, 1020 (7th Cir. 1999))). Instead, FCA liability
attaches only where the alleged misrepresentations
are material to the Government’s payment decision.
See Escobar, 136 S. Ct. at 2001–02.
In the FCA context, materiality is a “rigorous” and
“demanding” requirement. Id. at 2002–03; see also U.S.
ex rel. Coffman v. City of Leavenworth, 770 F. App’x
417, 419 (10th Cir. 2019) (holding “[a]n FCA claim
must satisfy materiality . . . which [is] ‘rigorous’ and
strictly enforced”). Assessing materiality requires
analysis of the “effect on the likely or actual behavior

App. 14
of the recipient of the alleged misrepresentation.”9 See
Escobar, 136 S. Ct. at 2002; see also 31 U.S.C.
§ 3729(b)(4) (defining materiality as “having a natural
tendency to influence, or be capable of influencing, the
payment or receipt of money or property”). Thus, the
sine qua non of materiality is some quotient of potential influence on the decisionmaker—in this case, CMS.
Janssen dedicates much of her briefing to arguing
for a “broad” interpretation of materiality. Aplt. Br. at
31. She contends the Supreme Court in Escobar
adopted the concept of materiality familiar to contract
and tort law and, under such a view, materiality may
be shown through either an objective or subjective
showing.10 Id. at 27, 33. According to Janssen, under
9

Although the focus is on the Government’s likely conduct,
Janssen need not demonstrate actual reliance to survive summary judgment. Cf. United States v. Williams, 934 F.3d 1122,
1128–30 (10th Cir. 2019). That is, a false statement can be material even if the government’s decision to pay or not pay the claim
does not hinge on that statement alone. To erect such a bar—one
requiring a showing of actual reliance—would impermissibly go
beyond the text of the statute. See, e.g., 31 U.S.C. § 3729(a)(1)(A)
(attaching liability to the presentment of a false or fraudulent
claim for payment rather than the actual payment of the claim);
see also U.S. ex rel. Grubbs v. Kanneganti, 565 F.3d 180, 189 (5th
Cir. 2009) (“The False Claims Act . . . lacks the elements of reliance and damages.”).
10
Janssen also cites numerous cases in support of her argument in favor of a purely objective or subjective understanding of
materiality. We find these unpersuasive. Long v. Insurance Co. of
North America involved allegations of insurance fraud between
two private parties. 670 F.2d at 934. Gilbert v. Nixon involved allegations of fraud connected to investments in certain oil and gas
leases executed between two private parties. 429 F.2d 348, 351–
54 (10th Cir. 1970). Neither case offers an analogy to the present

App. 15
either an objective or subjective showing, the focus
need not be on the recipient of the misrepresentation.
See Aplt. Br. at 34 (stating that “absent from both the
objective and subjective tests is any requirement of
proof of what the recipient of a misrepresentation actually thought or did in response to it”).
But contrary to Janssen’s argument, the Supreme
Court in Escobar did not adopt the formulation of materiality contained in the Restatement (Second) of
Torts § 538 and the Restatement (Second) of Contracts
§ 162(2). Instead, the Court cited these formulations in
support of the statement that “under any understanding of the concept, materiality ‘look[s] to the effect on
the likely or actual behavior of the recipient of the alleged misrepresentation.’ ” Escobar, 136 S. Ct. at 2002
(emphasis added). Thus, rather than directing courts
to focus exclusively on a reasonable person—as they
would under a purely objective analysis—or exclusively on the mindset of the misrepresenter—as they
would under a purely subjective analysis—Escobar
FCA allegations, much less a persuasive reason to distinguish
and attempt to depart from the controlling directive of Escobar.
United States v. Brookdale Senior Living Communities, Inc., 892
F.3d 822 (6th Cir. 2018), and United States v. Triple Canopy, Inc.,
857 F.3d 174 (4th Cir. 2017), involve FCA allegations, but neither
control nor support Janssen’s conceptualization of materiality.
First, both cases concerned the sufficiency of pleadings to withstand a motion to dismiss under Federal Rule of Civil Procedure
12(b)(6). See Brookdale, 892 F.3d at 825–26; Triple Canopy, 857
F.3d at 175. Second, each explicitly considered the likely or actual
effect of the alleged misrepresentations on the Government in its
analysis, consistent with the approach adopted here. Brookdale,
892 F.3d at 832–38. Triple Canopy, 857 F.3d at 178–79.

App. 16
focuses the materiality inquiry on the likely reaction
of the recipient.11
This inquiry is holistic. In cases such as this one,
where the allegations base FCA liability on noncompliance with regulatory or contractual provisions, relevant factors include, but are not limited to (1) whether
the Government consistently refuses to pay similar
claims based on noncompliance with the provision at
issue, or whether the Government continues to pay
claims despite knowledge of the noncompliance; (2)
whether the noncompliance goes to the “very essence
of the bargain” or is only “minor or insubstantial;” and
(3) whether the Government has expressly identified a
provision as a condition of payment. Escobar, 136 S. Ct.
at 2003 & n.5. None of these factors alone are dispositive. See United States v. Brookdale Senior Living
Cmtys., Inc., 892 F.3d 822, 831 (6th Cir. 2018).
Applying this standard of materiality, we turn first
to LMH’s alleged falsification of arrival times before
addressing LMH’s alleged false certifications of compliance with the Deficit Reduction Act.

11

Evidence of objective or subjective materiality are not irrelevant. Such evidence may be probative in the materiality analysis. U.S. ex rel. Escobar v. Univ. Health Servs., Inc., 842 F.3d
103, 109 (1st Cir. 2016). But it is relevant primarily because it
casts light on the likely reaction of the recipient, not because it
holds any isolated independent importance.

App. 17
B. Patient Arrival Times
Assessing the factors discussed above, we conclude
Janssen has failed to present sufficient evidence to
raise a fact issue with respect to whether the alleged
falsification of arrival times was material to the Government’s payment decision.
1. Government’s Prior Conduct
The Government’s prior conduct weighs in favor of
immateriality. Where the “Government consistently
refuses to pay claims in the mine run of cases based on
noncompliance with the particular statutory, regulatory, or contractual requirement,” this demonstrates
materiality. Escobar, 136 S. Ct. at 2003–04. Conversely,
if the “Government pays a particular claim in full despite its actual knowledge that certain requirements
were violated, that is very strong evidence that those
requirements are not material.” Id.
Neither party presents other cases concerning
CMS reimbursement under the IQR, OQR, or HVBP
programs, and we are aware of none. But the Government’s actual behavior in this case suggests Janssen’s
allegations are immaterial.12 See U.S. ex rel. McBride v.
12

We focus here on CMS’s inaction despite knowledge of the
allegations. Although stressed in LMH’s briefing, we put little
weight on the fact that the DOJ was aware of the allegations and
declined intervention. To infer much, if anything, from such a declination would undermine the purposes of the FCA, which is explicitly designed to permit private persons to litigate suits in lieu
of the Government. Brookdale, 892 F.3d at 836; see also 31 U.S.C.
§ 3730(d)(2).

App. 18
Halliburton Co., 848 F.3d 1027, 1034 (D.C. Cir. 2017)
(“[W]e have the benefit of hindsight and should not ignore what actually occurred.”). The record shows that
in 2014 NCI conducted an investigation over several
months into the central allegations presently at issue
and made CMS aware of the quality issues complained
of. To this day, CMS has done nothing in response and
continues to pay LMH’s Medicare claims. Although
CMS may not have independently verified LMH’s noncompliance—and thus may not have obtained “actual
knowledge” of the alleged infractions—its inaction in
the face of detailed allegations from a former employee
suggests immateriality. See U.S. ex rel. Berg v. Honeywell Int’l, Inc., 740 F. App’x 535, 538 (9th Cir. 2018) (upholding summary judgment where the Government
continued to pay claims “up to at least 2008, despite
being aware of Relators’ fraud allegations since 2002
[and] the results of its own audit since 2003”); see also
D’Agostino v. ev3, Inc., 845 F.3d 1, 7 (1st Cir. 2016)
(“The fact that CMS has not denied reimbursement for
Onyx in the wake of D’Agostino’s allegations casts serious doubt on the materiality of the fraudulent representations.”).
Janssen claims that NCI did not engage in an “actual investigation.” Aplt. Br. at 61. But NCI’s report undermines this claim, and an affidavit from the NCI
custodian of record avers that “NCI AdvanceMed investigated Megen Duffy’s claim against Lawrence Memorial Hospital that is the subject of this lawsuit.”
App. at 2530. Janssen also contends the scope of the

App. 19
investigation was confined to whether or not “door-toEKG” was, at the time, an HVBP measure. Aplt. Br. at
61. This too is belied by the record. Although the NCI
documents fail to precisely detail the scope of the investigation, they indicate that NCI was focused on the
central complaint at issue here. For example, the cover
sheet for the CMS hotline states that “Ms. Duffy claims
that the employees of LMH are falsifying patients’
charts . . . in order to get higher reimbursements.”
App. at 2532. The NCI closing investigative summary
further describes the allegations under review as involving LMH “manipulating their door-to-EKG times
. . . so that Lawrence Memorial Hospital can receive
the highest reimbursement possible.” App. at 2537. Although the evidence with respect to NCI’s investigation is not overwhelming, the NCI summary details
identification of a “quality issue” with respect to the
precise allegations at issue and notes that CMS was
made aware of the matter. This constitutes some evidence in favor of immateriality.13

13

Janssen cites to the First Circuit’s decision on remand in
Escobar, arguing that nothing should be drawn from the CMS’s
continued payment of claims where it had only knowledge of allegations, as opposed to actual violations. U.S. ex rel. Escobar v.
Univ. Health Servs., Inc., 842 F.3d 103, 112 (1st Cir. 2016)
(“[A]wareness of allegations concerning noncompliance with regulations is different from knowledge of actual noncompliance.”)
While the distinction between allegations and actual knowledge
is relevant, we find the First Circuit’s decision distinguishable. In
Escobar the court assessed the sufficiency of a complaint at the
motion to dismiss stage, finding that potential knowledge of allegations was insufficient to warrant dismissal where the alleged
noncompliance went to the essence of the bargain. The procedural

App. 20
2. Essence of the Bargain
The minimal aspects of LMH’s alleged misconduct
similarly suggest immateriality. Where noncompliance
with a regulatory requirement is “minor or insubstantial,” it indicates immateriality. Escobar, 136 S. Ct. at
2003. Conversely, where noncompliance goes to the
“essence of the bargain,” it suggests materiality. Id. at
2003 n.5.
Janssen emphasizes the importance of accurate
reporting to the effective operation of the IQR, OQR,
and HVBP programs as justification for the importance and centrality of LMH’s misconduct. Aplt. Br.
at 45. The need for accurate reporting is at least arguably enshrined in the statutory and regulatory requirements for the programs, and was understood, at
least at a general level, by LMH staff. But in the complex matrix of Medicare reporting and reimbursement,
such broad appeals to the importance of accurate reporting cannot clear the rigorous materiality hurdle.
See U.S. ex rel. Conner v. Salina Regional Health Ctr.,
Inc., 543 F.3d 1211, 1221 (10th Cir. 2008) (holding a
hospital’s failure to comply perfectly with Medicare
regulations does not automatically generate FCA liability). As we noted in Conner, the Government has an
posture here is quite different. It is not inconsistent to state that
knowledge of allegations is insufficient, alone, to warrant dismissal under Rule 12(b)(6) and yet constitutes some evidence of
immateriality under Rule 56(a). Moreover, in Escobar the allegations only noted that the Government continued to pay claims up
to the filing of litigation. Here CMS has continued to pay claims—
and has requested no changes in LMH’s data reporting or Emergency Room practices—for years despite ongoing litigation.

App. 21
“administrative scheme for ensuring that hospitals remain in compliance and for bringing them back into
compliance when they fall short of what the Medicare
regulations and statutes require.” Id. at 1220.
Here, that scheme envisions administrative procedures designed to address noncompliance with requirements of the IQR and OQR programs, including
inaccurate reporting. See 42 C.F.R. §§ 412.140, 419.46.
Substituting FCA liability for every failure to achieve
perfect compliance with Medicare regulations would
not only undermine the Government’s administrative
program, but would render the FCA a general antifraud statute and tool for policing minor regulatory
compliance issues, contrary to the Court’s directive in
Escobar. See Conner, 543 F.3d at 1221; see also Escobar,
136 S. Ct. at 2003.
Accordingly, we must look not to simply whether
Janssen has shown some inaccuracies in LMH’s reporting, but to whether Janssen has demonstrated sufficiently widespread deficiencies that they would likely
affect the Government’s payment decision. We conclude she has failed to do so.
As Janssen concedes, there is “little evidence”
demonstrating the extent to which inaccurate arrival
times affected the accuracy of LMH’s reporting. Aplt.
Br. at 59. In the IQR and OQR programs, arrival time
is only incorporated into a subset of measures for
which LMH reports data. Moreover, not all the patient
records relating to each affected measure were falsified. Even taking all reasonable inferences in Janssen’s

App. 22
favor, we can at most conclude that relatively few records reported false arrival times. See App. at 2606
(averring that only 15.99% of inpatient records and
4.09% of outpatient records incorporating arrival time
had an EKG time identical to or earlier than the patient’s arrival time). Thus, at most, LMH’s alleged misconduct affected only a subset of a subset of the data
reported under the IQR and OQR programs.
The effect of LMH’s alleged misconduct is similarly limited with respect to the HVBP program. Only
two measures in one of the four domains that affect
LMH’s performance score under the program incorporated arrival times. Within these measures, the degree
to which LMH’s alleged misconduct affected its performance is not ascertainable. At most, Janssen has
shown uncertain effects on a factor of a factor of LMH’s
performance score. This evidence is insufficient to raise
a fact issue with respect to materiality. See Conner, 543
F.3d at 1220–21; Escobar, 136 S. Ct. at 2003–04.
Nor has Janssen put forward evidence of a coverup, which might signal materiality despite the minor
effects of the alleged misconduct. See United States v.
Triple Canopy, Inc., 775 F.3d 628, 638 (4th Cir. 2015)
judgment vacated by Triple Canopy, Inc. v. U.S. ex rel.
Badr, ___ U.S. ___, 136 S. Ct. 2504, 195 L.Ed.2d 836
(2016), but reaffirmed in Triple Canopy, Inc., 857 F.3d
174 (4th Cir. 2017). In Triple Canopy, the Fourth Circuit inferred materiality, in part, from a “scheme” the
defendant orchestrated to cover up the deficiencies of
guards contracted to provide security services on U.S.
military bases overseas. There, after learning of the

App. 23
guards’ deficient training, defendant’s supervisors falsified scorecards so that its guards would meet the
marksmanship requirements in its contract with the
Government. Supervisors signed and post-dated the
guards’ false marksmanship scorecards despite knowing the guards could not zero their rifles or shoot
straight.
Here, no analogous cover-up is evident. Janssen
points to Medicare claim forms and Data Accuracy and
Completeness Acknowledgments, arguing both constitute false certifications of accuracy regarding LMH’s
reported arrival times. But these boilerplate compliance documents are part of the complex Medicare regulatory system and fail to elevate potentially lessthan-perfect compliance to FCA liability. See Conner,
543 F.3d at 1221 (rejecting the “sweeping” argument
that Medicare certifications give rise to FCA liability
with respect to minor or insubstantial regulatory noncompliance). Moreover, none of the deposition testimony Janssen cites supports the assertion that LMH’s
certifications were signed despite knowledge of inaccuracies similar to the guards’ scorecards in Triple
Canopy.
In light of the, at most, minimal nature of the inaccuracies in LMH’s reporting under the IQR, OQR,
and HVBP programs, we find Janssen’s allegations do
not go to the essence of the bargain between LMH and
CMS and are therefore immaterial.

App. 24
3. Express Condition of Payment
Finally, Janssen contends that the Government
has expressly required accurate reporting as a condition of payment under the IQR, OQR, and HVBP
programs. Aplt. Br. at 41, 52 (citing 42 U.S.C.
§§ 1395ww(b), 1395l(t)(17), 1395ww(o); 42 U.S.C.
§§ 1395ww(b)(3)(B)(viii)(I), 1395l(t), 1395ww(o)(1); and
42 C.F.R. § 482.24). Such requirements, while relevant,
are not dispositive. Escobar, 136 S. Ct. at 2003.
Certain conditions for participating in Medicare
are provided by 42 C.F.R. § 482.24. Among other
things, participating hospitals such as LMH must
maintain accurate medical records. While this requirement casts some light on the general importance of accurate reporting to the Government, it does not
directly address the IQR, OQR, and HVBP programs.
More importantly, such generic regulatory requirements fall short of establishing the materiality of perfect compliance therewith, especially when encased in
a complex regulatory system with separate administrative remedies. Conner, 543 F.3d at 1218–22.
The remaining provisions of 42 U.S.C. §§ 1395ww(b),
1395l(t), and 1395ww(o) similarly fail to establish materiality. Even assuming these statutes require accurate reporting as an express condition under the
relevant programs, that alone is insufficient to establish materiality. Escobar, 136 S. Ct. at 2003.
Accordingly, we find that the statutes and regulations related to the IQR, OQR, and HVBP programs do
not overcome Janssen’s failure to establish materiality

App. 25
with respect to LMH’s alleged falsification of arrival
times.
C. Deficit Reduction Act
Janssen’s claims with respect to the Deficit Reduction Act similarly fail for lack of materiality. Although
the record reveals a fact issue with respect to whether
all of LMH’s employee handbooks comply with Section
6032, not all potential compliance failures warrant
FCA liability. Escobar, 136 S. Ct. at 2003 (noting the
FCA is not a “vehicle for punishing garden-variety
breaches of . . . regulatory violations”).
Numerous New Associate Resource Handbooks
distributed by LMH between 2007 and 2016 lack detailed, if any, discussion of the False Claims Act or the
specific topics required to be communicated to employees under Section 6032. This may raise a jury issue
with respect to whether LMH violated Section 6032.
See 42 U.S.C. § 1396a(a)(68). Further, it is reasonable
to infer from the testimony of LMH’s Chief Financial
Officer and Chief Operating Officer that LMH management submitted inadequate or false attestations of
compliance with the DRA.
But while LMH’s potential failure to educate its
employees in the manner and detail required by Section 6032 and its management’s certification of compliance without sufficient knowledge, investigation, or
review raise concerns with respect to LMH’s regulatory compliance, these points do not translate into FCA
liability. As we have previously explained, the FCA is

App. 26
not a tool to police everyday regulatory noncompliance.
U.S. ex rel. Burlbaw v. Orenduff, 548 F.3d 931, 959
(10th Cir. 2008) (“The FCA is not an appropriate vehicle for policing technical compliance with administrative regulations.”); see also Escobar, 136 S. Ct. at 2002.
This rings especially true where complex regulatory
schemes are managed by specific agencies with extensive technical experience. See Conner, 543 F.3d at 1221
(“It is therefore with good reason that the agencies of
the federal government, rather than the courts, manage Medicare participation in the first instance. . . .”).
In such scenarios, not every regulatory foot-fault will
enable Relators to avail themselves of the FCA’s potentially costly damages awards.
LMH’s potential DRA compliance failures are precisely the type of garden-variety compliance issues
that the demanding materiality standards of the FCA
are meant to forestall. First, Janssen has at most
demonstrated limited compliance issues, not a wholesale failure of LMH’s compliance function. Outside of
the new employee resource handbooks and attestations mentioned, Janssen does not dispute that LMH
provides employees information regarding FCA compliance in line with the requirements of Section 6032.
For example, LMH provides specific compliance training to new employees, which include discussion of the
FCA, state-based equivalents, and other fraud-related
issues. Even the new employee resource handbooks
assailed by Janssen include cross-references to other
resources containing FCA information.

App. 27
Second, Janssen fails to show any likely effect the
DRA compliance issues would have on the Government’s payment decision. Janssen argues DRA compliance was an “absolute prerequisite” to LMH receiving
Medicare compensation. Aplt. Br. at 69. But as the Supreme Court made clear in Escobar, making a certain
contractual or regulatory requirement an explicit condition of payment is insufficient to establish materiality. Escobar, 136 S. Ct. at 2003 (“A misrepresentation
cannot be deemed material merely because the Government designates compliance with a particular statutory, regulatory, or contractual requirement as a
condition of payment.”).
Recognizing this, Janssen also cites the Kansas
Medical Assistance Program Fee-for-Service Provider
(KMAP) manual. This manual, generated by the Kansas state government, reiterates the requirements of
Section 6032 of the DRA and notes that hospitals receiving over $5 million annually in Medicare must
comply therewith. Such inclusion fails to demonstrate
any peculiar importance Section 6032 may have to the
Government’s payment decision. To the contrary, as a
compliance aid, it is unsurprising the KMAP manual
reiterates compliance requirements.
Accordingly, Janssen fails to raise a fact issue with
respect to the materiality of LMH’s alleged noncompliance with Section 6032 of the DRA.

App. 28
III.

Conclusion

For the foregoing reasons, we AFFIRM the decision of the district court.

App. 29
2018 WL 4748345
United States District Court, D. Kansas.
UNITED STATES of America,
EX REL. Megen DUFFY, Relator-Plaintiff,
v.
LAWRENCE MEMORIAL HOSPITAL, Defendant.
Case No. 14-2256-SAC-TJJ
|
Signed 10/02/2018
Attorneys and Law Firms
Anthony E. LaCroix, LaCroix Law Firm, LLC, Daniel
G. Curry, Sarah A. Brown, Brown & Curry, LLC, Kansas City, MO, Robert K. Collins, Collins Law Office,
LLC, Olathe, KS, Theodore J. Lickteig, Law Offices of
Theodore J. Lickteig, Lenexa, KS, for Relator-Plaintiff.
Andrew R. Ramirez, Blane R. Markley, Kathryn Goldsmith Lee, Mark A. Cole, Michael F. Saunders, Spencer
Fane LLP, Overland Park, KS, Patrick A. McInerney,
Spencer Fane LLP, Kansas City, MO, for Defendant.
MEMORANDUM AND ORDER
Sam A. Crow, U.S. District Senior Judge
Plaintiff has brought this False Claims Act (“FCA”)
lawsuit against defendant Lawrence Memorial Hospital (“LMH”). This case is before the court upon LMH’s
motion for summary judgment (Doc. No. 322) and
plaintiff ’s motions for partial summary judgment (Doc.

App. 30
Nos. 318) and for summary judgment against LMH’s
counterclaims (Doc. No. 320).
Plaintiff alleges that LMH made two kinds of false
statements in this case. First, plaintiff asserts that
LMH falsely reported information involving patients’
arrival time to the Government to increase Medicare
reimbursement. Plaintiff asserts:
that LMH knowingly manipulated the apparent order of timed patient events in medical
records, so as to maximize Medicare reimbursement. In carrying out this scheme, LMH
knew that the Specifications Manuals instructed LMH to abstract the earliest event in
the medical record as “arrival time.” So LMH
made sure electrocardiogram (“EKG”) times
were the earliest times appearing in the records of chest-pain patients. Of course, these
patients had necessarily arrived at the hospital well before receiving an EKG. The proof
is in the proverbial pudding. LMH began reporting “zero” minute arrival-to-EKG times in
2011.
Doc. No. 333, p. 1. Plaintiff claims this misinformation
“directly impacted LMH’s Medicare reimbursement
rate because of [its] impact on the Outpatient Quality
Reporting (‘OQR’), Inpatient Quality Reporting (‘IQR’),
and Hospital Value Based Purchasing (‘HVBP’) programs.” Id.
Plaintiff ’s second claim is that LMH knowingly,
recklessly and falsely certified compliance with employee anti-fraud education requirements set out by

App. 31
Section 6032 of the Deficit Reduction Act of 2005
(“DRA”) as a condition of payment from the Medicaid
program. Id. at p. 2. Plaintiff seeks partial summary
judgment in her favor on this claim. Doc. No. 318.
LMH has alleged state law breach of contract and
fraudulent misrepresentation counterclaims against
plaintiff. These claims arise from a settlement agreement LMH and plaintiff entered which resolved discrimination claims plaintiff raised in administrative
complaints. A broadly-stated release was part of the
agreement. The settlement agreement was struck a
few months after plaintiff filed this FCA action under
seal. LMH did not know of the FCA action at the time
of the settlement agreement. LMH contends that
plaintiff breached the settlement agreement and made
fraudulent misrepresentations which LMH relied
upon to enter the settlement agreement. Plaintiff asks
for summary judgment against the counterclaims. Doc.
No. 320.
As explained below, the court finds that LMH’s motion for summary judgment should be granted because
plaintiff cannot demonstrate an essential element of
her FCA claims, that is the materiality of the alleged
false statements made by LMH. For the same reasons,
plaintiff ’s motion for partial summary judgment
should be denied. With these rulings, the court shall
decline to exercise jurisdiction over LMH’s counterclaims. Therefore, plaintiff ’s motion for summary judgment against the counterclaims is moot.

App. 32
I.

SUMMARY JUDGMENT STANDARDS

Summary judgment is appropriate “if the movant
shows that there is no genuine dispute as to any material fact and the movant is entitled to judgment as a
matter of law.” FED.R.CIV.P. 56(a). A “genuine dispute
as to a material fact” is one “such that a reasonable
jury could return a verdict for the nonmoving party.”
Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 248
(1986). “Only disputes over facts that might affect
the outcome of the suit under the governing law will
properly preclude the entry of summary judgment.” Id.
At the summary judgment stage, the court’s job “is
not . . . to weigh the evidence and determine the truth
of the matter but to determine whether there is a genuine issue for trial. . . . If [however] the evidence is
merely colorable . . . or is not significantly probative . . .
summary judgment may be granted.” Id. at 249-50.
The moving party bears the initial burden of showing the absence of any genuine issue of material fact.
Celotex Corp. v. Catrett, 477 U.S. 317, 323 (1986). Once
the moving party meets this burden, the burden shifts
to the nonmoving party to demonstrate that genuine
issues remain for trial as to those dispositive matters
for which the nonmoving party carries the burden of
proof. Nahno-Lopez v. Houser, 625 F.3d 1279, 1283
(10th Cir. 2010). The non-movant may not rely on the
party’s own pleadings; rather, the non-movant must
come forward with facts supported by competent evidence. Id. (interior quotations omitted). The essential
inquiry is “whether the evidence presents a sufficient
disagreement to require submission to the jury or

App. 33
whether it is so one-sided that one party must prevail
as a matter of law.” Liberty Lobby, 477 U.S. 251-52.
II.

FACTS

The following facts are uncontroverted or construed in the light most favorable to plaintiff. Some
additional facts, particularly as to plaintiff ’s DRA contentions, may be included in the court’s later discussion of LMH’s arguments.
In November 2013, plaintiff called a Centers for
Medicare & Medicaid Services (“CMS”) hotline to report LMH for falsifying patient charts and charging
Medicare for services LMH was not providing so that
LMH would receive increased Medicare reimbursement. Her allegations were investigated by NCI Advance Med, a CMS contractor that investigates fraud
allegations. That investigation was closed around July
2014.
Plaintiff filed her initial complaint under seal on
May 30, 2014. The U.S. Department of Justice was
served with the complaint. The Health and Human
Services Office of Inspector General was notified and
plaintiff was interviewed by the U.S. Attorney’s Office
for the District of Kansas. The Department of Justice
has declined to intervene in this case. Plaintiff filed an
amended complaint on June 16, 2015. DOJ was served
with the complaint and again declined to intervene.

App. 34
A. Arrival time facts
LMH makes daily claims to the Medicare program
for interim payment to a Medicare Administrative
Contractor. LMH is paid for services to Medicare patients through interim payments received most business days.
The charges LMH submits for payment are based
upon LMH’s chargemaster which is LMH’s official
rates for individual procedures, services and goods at
the hospital. CMS determines the payment rate for
LMH’s charges for Medicare patient services prior to
the services being delivered. LMH has a contract with
CMS to provide services to Medicare patients for the
rates determined by CMS.
The payment rate is impacted positively by
LMH’s participation in reporting programs. The Inpatient Quality Reporting Program (“IQR”) is a “pay-forreporting” program. Under this program, hospitals
report certain designated quality measures regarding
their inpatient encounters to CMS. The Outpatient
Quality Reporting Program (“OQR”) is also a “pay-forreporting” program. Under this program, hospitals report certain designated quality measures regarding
their outpatient encounters to CMS. In return for submitting data for these reporting programs, hospitals
avoid a reduced payment for the provision of services
to Medicare patients.
LMH’s Quality Services Department abstracts
data from patient charts and submits that data to CMS
for IQR and OQR reports. The data abstraction is done

App. 35
using Specifications Manuals promulgated by CMS.
Because abstractors do not and cannot alter patient
records or even investigate the accuracy of the patient
records, inaccuracies in patient records are simply carried over to the abstracted data reported to CMS on
IQR and OQR measures.
Each fiscal year from 2011 to 2018, LMH completed
Data Accuracy and Completeness Acknowledgements
(“DACA” forms) and submitted those certifications to
CMS. The DACA forms acknowledge that the information reported for the IQR program is accurate and
complete and that the acknowledgement is required
for the IQR program.
Each year CMS randomly selects 450 hospitals for
each of the IQR and OQR programs to verify the accuracy of the abstraction of data from medical records.
In addition, there are 50 targeted hospitals. LMH has
been randomly selected three times since 2011. LMH
satisfied the 75 percent accuracy threshold in these
audits. The audits, however, do not assess the accuracy
of the medical records themselves.
The HVBP program is a budget-neutral program.
Under the HVBP, CMS withholds a percentage from
the total annual Medicare payments to all hospitals
nationally, and places it in a separate fund used to
increase or decrease the reimbursement rate upon
claims for payment in following years, depending upon
performance on certain measures calculated with IQR
data.

App. 36
All amounts in the HVBP fund are paid out to hospitals each year. CMS does not retain any of the money.
“Arrival time” is a component of certain measures
in the IQR and OQR programs. There are numerous
other measures which do not use “arrival time” as a
component.
Performing an ECG prior to registering a patient
results in the “arrival time” reported to CMS being the
same as the ECG time in the patient record, where the
ECG is the earliest documented event in the medical
record.
An expert witness for plaintiff has testified that,
based upon his review of documents, LMH failed to
properly record the actual arrival times of ER chest
pain patients by delaying registration until after an
ECG was obtained. Doc. No. 333-14, p. 3. There is other
evidence discussed in the orders denying LMH’s first
motion for summary judgment and LMH’s motion for
reconsideration (Doc. No. 204, pp.8-9, 16-19; Doc. No.
234, p. 4 n.2), that LMH knowingly falsified patient
records with the intent of causing abstracted “arrival
times” to be later than they would have been absent
the falsification, thereby improving LMH’s reported
performance on time measures for the IQR, OQR, and
HVBP programs. See also, Doc. No. 333, Statement of
Fact # 89 and record citations in support.
From 2010 through 2017 for LMH, the records in
which the abstracted “arrival time” of a patient was
either the same as or after a recorded EKG time represents 15.89% of the inpatient records submitted to

App. 37
CMS for measures for which “arrival time” was a data
point.
From 2010 through 2017 for LMH, the records in
which the abstracted “arrival time” was either the
same as or after a recorded ECG time represents
4.09% of the outpatient records submitted to CMS for
measures for which “arrival time” was a data point.
LMH reported “arrival times” that were used to
calculate CMS measure AMI-8A – “primary percutaneous coronary intervention received within 90 minutes
of hospital arrival.” “Arrival time” was either the same
or after a recorded EKG time in 72.22 percent of the
records LMH submitted to CMS for HVBP measure
AMI-8a for FY 2015. The goal set out in AMI-8a was
to administer a PCI (heart catheterization) within 90
minutes of arrival. No evidence has been presented
to show that the LMH’s allegedly false “arrival times”
had a material impact upon whether the goal was
met.
In fiscal years 2014, 2015, 2016 and 2017, LMH
was not penalized for reporting inaccurate data to
CMS and LMH received positive Value Based Purchasing adjustments based upon the data it provided.

App. 38
B. DRA facts1
LMH has submitted attestation of compliance
forms for multiple fiscal years. The forms attest to
compliance with Section 6032 of the DRA. The forms
state “as a condition for receiving payments exceeding
$5 million per federal fiscal year,” that the signees have
read Section 6032 of the DRA and examined LMH’s
policies and procedures. The forms further state that
LMH will comply with the provisions to remain eligible
for payment under the Kansas Medicaid program and
that LMH has complied with the requirements of the
DRA to educate employees and contractors concerning,
among other matters, the False Claims Act, state law
pertaining to Medicaid fraud and abuse, administrative remedies for false claims and statements, civil or
criminal penalties for false claims and statements, and
whistleblower protections under such laws. Copies of
attestations for the fiscal years 2014, 2015, 2016 and
2017 have been submitted as exhibits.
Plaintiff has presented evidence that persons
signed the attestations without first examining LMH’s
policies and procedures. Plaintiff has also presented
evidence that LMH issued employee handbooks over
several years which did not contain information required by DRA Section 6032. LMH has presented evidence of its Codes of Conduct, Compliance Plans,
Compliance Handbooks, and on-line policy manuals
1

In this opinion, the court has considered the statement of
facts contained in the parties’ memoranda in support of and opposition to both LMH’s motion for summary judgment and plaintiff ’s motion for partial summary judgment.

App. 39
over the years. There is a fact issue as to whether these
sources satisfy the Section 6032 requirements for all
the years in dispute in this case. These sources, however, provide some evidence that LMH publicized its
commitment to deterring fraud and abuse, and provided education (sometimes quite general) regarding
anti-fraud goals, remedies, and legislation.
III. FCA STANDARDS
“The FCA “ ‘covers all fraudulent attempts to
cause the government to pay out sums of money.’ ” U.S.
ex rel. Polukoff v. St. Mark’s Hosp., 895 F.3d 730, 734
(10th Cir. 2018) (quoting U.S. ex rel. Conner v. Salina
Regional Health Ctr., Inc., 543 F.3d 1211, 1217 (10th
Cir. 2008) (interior quotation omitted)). The statute is
to be read broadly. Id. at 742.
Plaintiff brings this action under the FCA, specifically, subsections (A),(B) and (G) of 31 U.S.C. § 3729(a)(1).
These subsections state that it violates the law to:
(A) – knowingly present or cause to be presented, a
false or fraudulent claim for payment or approval; (B)
– knowingly make, use or cause to be made or used, a
false record or statement material to a false or fraudulent claim; and (G) – knowingly make, use, or cause to
be made or used, a false record or statement material
to an obligation to pay or transmit money or property
to the Government, or knowingly conceal or knowingly
and improperly avoid or decrease an obligation to pay
or transmit money or property to the Government.

App. 40
To prove a false claim under subsections (A) or (B),
a plaintiff must show that defendant: (1) made a claim;
(2) to the government; (3) that is materially false or
fraudulent; (4) knowing of its falsity; and (5) seeking
payment from the federal government. See U.S. v. The
Boeing Company, 825 F.3d 1138, 1148 (10th Cir. 2016).
To prove a “reverse false claim” under FCA section
3729(a)(1)(G) a relator must show that: (1) the defendant knowingly made a materially false record or
statement; (2) to improperly avoid or decrease an obligation to pay or transmit money or property to the government. See U.S. ex rel. Matheny v. Medco Health
Solutions, Inc., 671 F.3d 1217, 1222 (11th Cir. 2012).
A “claim” is:
(A) any request or demand . . . for money or
property . . . that (i) is presented to an officer,
employee, or agent of the United States; or (ii)
is made to a contractor, grantee or other recipient, if the money or property is to be spent or
used on the Government’s behalf or to advance a Government program or interest, and
if the United States Government – (I) provides or has provided any portion of the
money or property requested or demanded;
or (II) will reimburse such contractor, grantee,
or other recipient for any portion of the money
or property which is requested or demanded
...”
31 U.S.C. § 3729(b)(2).

App. 41
False claims under the FCA may be either factually false or legally false. Boeing, 825 F.3d at 1148; U.S.
ex rel. Lemmon v. Envirocare of Utah, Inc., 614 F.3d
1163, 1168 (10th Cir. 2010). A factually false claim
involves the submission of an incorrect description of
goods or services provided or a request for reimbursement for goods or services never provided. Polukoff,
895 F.3d at 741; Boeing, 825 F.3d at 1148; Lemmon, 614
F.3d at 1168 (interior quotation omitted). A legally
false claim is one which falsely certifies compliance
with a regulation or contractual provision as a condition of payment. Polukoff, supra; Boeing, 825 F.3d at
1148; Lemmon, 614 F.3d at 1168. A legally false claim
may be express or implied. Boeing, 825 F.3d at 1148.
An express claim occurs upon a false certification of
compliance with a term where compliance is a prerequisite to payment. Id. An implied claim occurs when
the request for payment lacks an express certification,
but contains a knowing and false implication of entitlement to payment. Id.
“To give rise to liability under the FCA, the submitted claim must be both knowingly and materially
false.” Boeing, 825 F.3d at 1148. “ ‘Liability [under the
FCA] does not arise merely because a false statement
is included within a claim’; rather, ‘the false statement
must be material to the government’s decision to pay
out moneys to the claimant.’ ” U.S. ex rel. Thomas v.
Black & Veatch Special, 820 F.3d 1162, 1169 (10th Cir.
2016) (quoting Conner, 543 F.3d at 1219 & n.6).

App. 42
Plaintiff mainly states that LMH made either
express legally false claims or factually false claims.2
Doc. No. 333, p. 46. LMH argues that plaintiff ’s claims
are largely implied certification claims. Doc. No. 334,
p. 56. The court does not believe the categorization of
plaintiff ’s claims is important to defendant’s materiality argument.
IV.

PLAINTIFF’S CLAIMS

According to the pretrial order, plaintiff is making
the following claims: 1) that, in violation of 31 U.S.C.
§ 3729(a)(1)(A), LMH submitted false claims to Medicare; 2) that, in violation of 31 U.S.C. § 3729(a)(1)(A),
LMH submitted false claims to Medicaid; 3) that, in
violation of 31 U.S.C. § 3729(a)(1)(B), LMH submitted
false records or statements to Medicare which constituted “false claims” and that these records or statements included but were not limited to “harvested
patient records”, Inpatient Quality Reports, Outpatient Quality Reports, and Data Accuracy and Completeness Acknowledgement certifications; 4) that, in
violation of 31 U.S.C. § 3729(a)(1)(B), LMH submitted
false records or statements to Medicaid which constituted “false claims”, specifically attestations of compliance with Section 6032 of the DRA; 5) that, in violation
of 31 U.S.C. § 3729(a)(1)(G), LMH concealed or improperly avoided an obligation to repay money received
2

Plaintiff states in a footnote, however, that the individual
DRA claims might be seen as implied false certifications. Doc. No.
333, p. 42 n.9.

App. 43
from Medicare through the Market Basket Update of
Outpatient Quality Reporting. Doc. No. 317, pp. 14-15.
These claims, as discussed in plaintiff ’s response
to the summary judgment motion, concern two alleged
underlying falsehoods: 1) that LMH submitted false
information concerning patients’ arrival times; and 2)
that LMH falsely certified that it complied with the
provisions of Section 6032 of the DRA. Any claim relating to the general warranties of truth contained on
individual claim forms3 or on the DACA forms cannot
describe a material falsehood if the underlying alleged
falsehoods are immaterial.
V.

DEFENDANT’S ARGUMENTS FOR SUMMARY
JUDGMENT

Defendant’s main argument for summary judgment is that plaintiff cannot prove a materially false
claim for payment or a materially false statement or
record in support of such a claim.4 Doc. No. 323, p. 12.
The same argument would apply to dispute whether

3

There is evidence that individual claim forms submitted by
LMH contained language stating:
Submission of this claim constitutes certification that
the billing information as shown on the face hereof is
true, accurate and complete. That the submitter did
not knowingly or recklessly disregard or misrepresent
or conceal material facts.
4
LMH also argues that plaintiff has not proven that false
arrival times were reported. The court finds that plaintiff has presented sufficient evidence to create a jury issue on this point.

App. 44
defendant had an obligation to repay money it received
from Medicare.
A. Materiality standards
“Material” means “having a natural tendency to
influence, or be capable of influencing, the payment or
receipt of money or property.” 31 U.S.C. § 3729(b)(4).
The Supreme Court has counseled that the term must
be given a rigorous and demanding construction in
the context of the FCA. Universal Health Servs., Inc. v.
United States ex rel. Escobar, 136 S. Ct. 1989, 2002-03
(2016) (“Escobar”).
“[M]ateriality ‘look[s] to the effect on the likely or
actual behavior of the recipient of the alleged misrepresentation.’ ” Id., 136 S.Ct. at 2002 (quoting Williston
on Contracts § 69:12, p. 549 (4th ed. 2003)). The Court
further stated in Escobar:
The False Claims Act is not “an all-purpose
antifraud statute,” Allison Engine, 553 U.S., at
672, 128 S.Ct. 2123 or a vehicle for punishing
garden-variety breaches of contract or regulatory violations. A misrepresentation cannot
be deemed material merely because the Government designates compliance with a particular statutory, regulatory, or contractual
requirement as a condition of payment. Nor is
it sufficient for a finding of materiality that
the Government would have the option to decline to pay if it knew of the defendant’s noncompliance. Materiality, in addition, cannot
be found where noncompliance is minor or

App. 45
insubstantial. See United States ex rel. Marcus v. Hess, 317 U.S. 537, 543, 63 S.Ct. 379,
87 L.Ed. 443 (1943) (contractors’ misrepresentation that they satisfied a non-collusive
bidding requirement for federal program contracts violated the False Claims Act because
“[t]he government’s money would never have
been placed in the joint fund for payment to
respondents had its agents known the bids
were collusive”); see also Junius Constr., 257
N.Y., at 400, 178 N.E., at 674 (an undisclosed
fact was material because “[n]o one can say
with reason that the plaintiff would have
signed this contract if informed of the likelihood” of the undisclosed fact).
In sum, when evaluating materiality under
the False Claims Act, the Government’s decision to expressly identify a provision as a
condition of payment is relevant, but not automatically dispositive. Likewise, proof of materiality can include, but is not necessarily
limited to, evidence that the defendant knows
that the Government consistently refuses to
pay claims in the mine run of cases based on
noncompliance with the particular statutory,
regulatory, or contractual requirement. Conversely, if the Government pays a particular
claim in full despite its actual knowledge that
certain requirements were violated, that is
very strong evidence that those requirements
are not material. Or, if the Government regularly pays a particular type of claim in full
despite actual knowledge that certain requirements were violated, and has signaled

App. 46
no change in position, that is strong evidence
that the requirements are not material.
Id. at 2003-04. “The fundamental inquiry is ‘whether a
piece of information is sufficiently important to influence the [government’s] behavior . . . ” U.S. v. Coloplast
Corp., 2018 WL 4029549 *6 (D.Mass. 8/17/2018) (quoting U.S. ex rel. Winkelman et al. v. CVS Caremark
Corp., 827 F.3d 201, 211 (1st Cir. 2016)). Courts should
conduct a holistic approach to determining materiality,
but “[m]ateriality is ‘more likely to be found where the
information at issue goes “to the very essence of the
bargain.” ’ ” Id., (quoting United States ex rel. Escobar
v. Universal Health Servs., Inc., 842 F.3d 103, 109 (1st
Cir. 2016) (citing Escobar, 136 S.Ct. at 2003 n.5)).
B. Arrival times
It is undisputed that “arrival time” is a component
of certain measures used in the IQR and OQR programs and that there are numerous other measures for
which arrival time is not a factor.
The court has reviewed the record citations presented by plaintiff. There is clear and substantial
support for the general proposition that LMH’s reimbursement is affected positively by submitting IQR
and OQR reports. There is also clear and substantial
support for the proposition that LMH’s reimbursement
from the Government can be positively or negatively
affected under the HVBP program from statistical

App. 47
measurements using information supplied by LMH.5
There is evidence that “arrival time” is a data point
which can affect some of the measures used by the
Government in the HVBP program. One such measure
is labelled AMI-8a. This involves the time from arrival
to heart catheterization. But, plaintiff has not presented evidence showing that LMH’s alleged arrival
time manipulations actually affected a reimbursement
decision or reimbursement rate, or would likely have
had an effect.6
Such evidence or allegations are critical. In U.S.
ex rel. McBride v. Halliburton Co., 848 F.3d 1027, 1033
(D.C. Cir. 2017), the court held that speculative statements that a false headcount “might” have led to an
5

The court relied upon these general propositions in part to
deny LMH’s materiality argument in LMH’s first motion for summary judgment. Doc. No. 204, pp. 19-20. Also, at the time the
court decided the first motion for summary judgment, discovery
was not complete and plaintiff ’s claims were not as clear. A final
pretrial order has been entered which helps clarify plaintiff ’s
claims. Discovery is complete. Under these circumstances, the
court has confidence in finding that plaintiff is unable to show evidence of materiality upon which a reasonable jury could find in
plaintiff ’s favor.
6
Plaintiff ’s statement of fact # 92 (Doc. No. 333, p. 28) states
that the amount of reimbursement upon every inpatient claim
was increased because of the reported arrival times’ impact upon
the AMI-8A measure. But, the record citations do not adequately
support plaintiff ’s claim. The witnesses either speak in generalities or do not specifically address reimbursement. Similarly,
plaintiff ’s statement of fact # 95 (Doc. No. 333, p. 29) states that
LMH received additional reimbursement of each Medicare claim
because of its performance in the HVBP program. Plaintiff ’s citations, however, do not show that the alleged inaccurate arrival
times had a material impact upon plaintiff ’s performance score.

App. 48
investigation or might have resulted in some charged
costs being disallowed, was far too attenuated to satisfy the FCA’s materiality standard. Also, in U.S. ex rel.
Nargol v. DePuy Orthopaedics, Inc., 865 F.3d 29, 36 (1st
Cir. 2017) cert. denied, 138 S.Ct. 1551 (2018), the court
affirmed the dismissal of a FCA claim involving the use
and FDA approval of a medical device where the defendant allegedly told doctors that the device had a
failure rate of 0.1% at five years, as opposed to a more
modest 4% to 4.5% claimed in FDA filings. This claim
that a design defect was misrepresented was dismissed
because there was no allegation that the difference
between 0.1% and 4%-4.5% was significant to doctors
or the difference between being reimbursable by the
government and not being reimbursable.7
The court does not question that the Government
expects to receive accurate information from LMH.
LMH expressly represents through the DACA forms
and warranties made with claims for payments, that
the information submitted is accurate and complete.
LMH also impliedly represents that the information it
submits for the Government is accurate. Several witnesses have testified as to this understanding. But,
for plaintiff to establish a jury issue as to materiality,
there must be some showing that the inaccuracy alleged as to arrival time is sufficiently critical that the
Government modified or would likely have modified
its reimbursement behavior on the basis of that
7

The court also reversed the dismissal of a FCA claim that
defendant sold a defectively manufactured product to a provider
that sought government reimbursement. 865 F.3d at 41.

App. 49
information. Plaintiff has failed to present evidence
that LMH’s alleged submission of inaccurate arrival
time data was material to a reimbursement decision,
in other words, that it would not be considered by the
Government as a minor or insubstantial matter as opposed to a material violation of LMH’s duty to provide
accurate and complete information.
The statutes and regulations cited by plaintiff
are quite general in nature. Plaintiff cites 42 C.F.R.
§ 482.24 which requires LMH, as a condition of participation in Medicare, to maintain accurate medical records. This regulation, however, does not make perfect
compliance a condition to receive payment and it does
not directly concern the participation in or payment
conditioned on the IQR, OQR or HVBP programs. A
mandatory broadly-stated certification of compliance
with laws and regulations was rejected as proof of
materiality in Conner, 543 F.3d at 1218-22. The court
believes the requirements of § 482.24 also fail to
demonstrate the materiality of the alleged misrepresentations in this case.
Plaintiff also cites 42 U.S.C. §§ 1395ww(b),
1395l(t)(17) and 1395ww(o). These statutes authorize
the IQR, OQR and HVBP programs. But, the general
language set forth does not support a claim of materiality in the context of this case.
There is no indication in plaintiff ’s materials that
the Government has refused to pay a claim or reduced
compensation to a Medicare participant because of a
similar inaccuracy. Moreover, LMH’s reimbursements

App. 50
in past years from the Government appear not have
been affected by the Government’s knowledge of plaintiff ’s allegations. This is some evidence against plaintiff ’s claim of materiality. See McBride, 848 F.3d at
1034; D’Agostino v. EV3, Inc., 845 F.3d 1, 7 (1st Cir.
2016).
In sum, while the provision of accurate and complete information from LMH is a real and logical expectation by the Government, the record indicates
that plaintiff cannot prove that LMH’s alleged misrepresentations as to measures involving arrival times
are so important that they have affected or likely
would affect the Government’s reimbursement decisions.8

8

In reaching this decision, the court does not rely upon
LMH’s arguments regarding the validation of LMH’s abstracting
process, the administrative remedies available to LMH if it
wishes to challenge a reimbursement adjustment, or LMH’s claim
that the HVBP program does not impact the federal treasury.
These arguments are not pertinent to the materiality analysis required in this case because they do not reach the question of
whether the provision of inaccurate or incomplete information
from LMH’s medical records affected or likely would affect the
Government’s reimbursement actions. The court is not convinced
that an audit of the abstracting process addressed the source of
inaccuracy alleged by plaintiff. If LMH’s argument is that the leeway granted in the auditing process (a 75% threshold) suggests
that far less than perfect accuracy is required, the court is still
unconvinced that LMH is not comparing apples and oranges. The
court agrees with plaintiff that the possible administrative remedy for LMH if it wishes to contest a reimbursement adjustment
is not germane to whether the alleged misrepresentations in this
case were material to the Government. Finally, whether the U.S.
Treasury is ultimately impacted is not relevant to the question of

App. 51
C. DRA claims
The DRA went into effect on January 1, 2007. The
Act requires employee anti-fraud education methods
as a condition of participation for entities that receive
annual Medicaid payments of at least $5 million. LMH
has received more than $5 million in Medicaid payments each year since 2007.
Section 6032 of the DRA, at 42 U.S.C. § 1396a(68),
requires that a state Medicaid plan:
provide that any entity that receives or makes
annual payments under the State plan of at
least $5,000,000, as a condition of receiving
such payments, shall –
(A) establish written policies for all employees of the entity (including management), and
of any contractor or agent of the entity, that
provide detailed information about the False
Claims Act established under sections 3729
through 3733 of Title 31, administrative remedies for false claims and statements established under chapter 38 of Title 31, any State
laws pertaining to civil or criminal penalties
for false claims and statements, and whistleblower protections under such laws, with respect to the role of such laws in preventing
and detecting fraud, waste, and abuse in Federal health care programs (as defined in section 1320a-7b(f ) of this title);

whether an alleged misrepresentation affected or would likely affect a reimbursement decision.

App. 52
(B) include as part of such written policies,
detailed provisions regarding the entity’s policies and procedures for detecting and preventing fraud, waste, and abuse; and
(C) include in any employee handbook for
the entity, a specific discussion of the laws described in subparagraph (A), the rights of employees to be protected as whistleblowers, and
the entity’s policies and procedures for detecting and preventing fraud, waste, and abuse;
The Kansas Medicaid plan incorporates these requirements for service providers to Medicaid patients.
There is evidence in the summary judgment record which creates a jury issue as to whether LMH complied with the requirements that it inform its
employees of the provisions of the FCA and the Kansas
false claims statutes in the detail and manner mandated in Section 6032. The court finds, however, that
plaintiff cannot show that LMH’s compliance statements were material to a reimbursement decision by
the Government.
Plaintiff relies upon: the statutory language of
Section 6032; the language of the Kansas Medicaid
plan which incorporates Section 6032’s requirements;
Answers to Frequently Asked Question sent by CMS
to State Medicaid Directors; the Kansas Medical Assistance Program Fee-for-Service Manual (Doc. No. 32319, p. 20); and the language of the attestations of compliance. All of these sources indicate that compliance
with Section 6032 is a mandatory condition of receiving payments. The court concludes these sources, by

App. 53
and large, simply repeat the statutory commandment
of Section 6032 and that this does not suffice to establish a jury issue as to materiality. As previously quoted,
in Escobar the Court said clearly that “[a] misrepresentation cannot be deemed material merely because
the Government designates compliance with a particular statutory, regulatory, or contractual requirement
as a condition of payment.” 136 S.Ct. at 2003. The
Court expressly disagreed with the position that “any
statutory, regulatory, or contractual violation is material so long as the defendant knows that the Government would be entitled to refuse payment were it
aware of the violation.” Id. at 2004. Contrary to plaintiff ’s claim, a misrepresentation regarding the antifraud education given to LMH employees does not go
to the essence of the bargain between LMH and the
state and federal government for the provision of medical services.9 Nor has plaintiff shown that the Government’s knowledge of plaintiff ’s claims, or of similar
claims from other persons, has led to a change in the
Government’s reimbursement decisions. Upon the record presented, the court finds that plaintiff could not
persuade a reasonable jury that LMH made a misrepresentation relating to Section 6032 of the DRA which
9

In her reply brief, plaintiff cites U.S. v. Quicken Loans, Inc.,
239 F. Supp. 3d 1014 (E.D. Mich. 2017) in support of her materiality argument. The court finds that the alleged false statements
about compliance with FHA requirements for mortgage insurance
in Quicken Loans are considerably closer to the essence of the
bargain between the defendant and the Government in that case,
than the evidence presented by plaintiff for the summary judgment record in the case at bar.

App. 54
was material to the Government’s reimbursement actions.
VI. LMH’S COUNTERCLAIMS SHALL BE DISMISSED WITHOUT PREJUDICE.
The dismissal of plaintiff ’s federal claims opens
the question of whether to dismiss LMH’s counterclaims without prejudice pursuant to 28 U.S.C.
§ 1367(c). The court finds that it is unlikely that litigation in state court would cause a substantial increase
in cost or inconvenience for the parties. There is also a
strong argument that the counterclaims are permissive and lack an independent jurisdictional basis. See
U.S. ex rel. O’Donnell v. America at Home Healthcare,
2018 WL 319319 *8 (N.D.Ill. 1/8/2018); Wilhelm v. TLC
Lawn Care, 2008 WL 640733 *3 (D.Kan. 3/6/2008);
Allen v. Leal, 27 F.Supp.2d 945, 949 (S.D.Tex. 1998);
Chemtech Industries, Inc. v. Goldman Financial Group,
Inc., 156 F.R.D. 181, 185 (E.D.Mo. 1994). Under these
circumstances, the court shall dismiss LMH’s counterclaims without prejudice pursuant to 28 U.S.C.
§ 1367(c)(3). See Anglemyer v. Hamilton County Hosp.,
58 F.3d 533, 541 (10th Cir. 1995) (sustaining dismissal
of supplemental state claims where pretrial proceedings had been completed); see also Ball v. Renner, 54
F.3d 664, 669 (10th Cir. 1995) (describing dismissal of
supplemental claims after pretrial dismissal of federal
claims as the “most common response”).

App. 55
VII. CONCLUSION
For the above-stated reasons, LMH is entitled to
summary judgment against plaintiff ’s claims under
the FCA. The motion at Doc. No. 322 is therefore
granted. For the same reasons, plaintiff ’s motion for
partial summary judgment (Doc. No. 318) must be denied. The court shall dismiss LMH’s counterclaims
without prejudice. Finally, the court shall declare that
plaintiff ’s motion for summary judgment at Doc. No.
320 is moot.
IT IS SO ORDERED.

App. 56
2018 WL 9669749
Only the Westlaw citation is currently available.
United States District Court, D. Kansas.
UNITED STATES of America, EX REL.
Stacey L. JANSSEN, as Special Administrator
of the Estate of Megen Corin Duffy, Relator-Plaintiff,
v.
LAWRENCE MEMORIAL HOSPITAL, Defendant.
Case No. 14-2256-SAC-TJJ
|
Signed 12/11/2018
Attorneys and Law Firms
Anthony E. LaCroix, LaCroix Law Firm, LLC, Daniel
G. Curry, Sarah A. Brown, Brown & Curry, LLC, Kansas City, MO, Robert K. Collins, Collins Law Office,
LLC, Olathe, KS, Theodore J. Lickteig, Law Offices of
Theodore J. Lickteig, Lenexa, KS, for Relator-Plaintiff.
Andrew R. Ramirez, Blane R. Markley, Kathryn Goldsmith Lee, Mark A. Cole, Michael F. Saunders, Spencer
Fane LLP, Overland Park, KS, Patrick A. McInerney,
Spencer Fane LLP, Kansas City, MO, for Defendant.
ORDER
Sam A. Crow, U.S. District Senior Judge
Plaintiff has brought this action under the False
Claims Act (“FCA”), 31 U.S.C. § 3729 et seq. Defendant
(“LMH”) has brought counterclaims under state law
against plaintiff. The court granted LMH’s second

App. 57
summary judgment motion against plaintiff ’s FCA
claims because plaintiff could not show the materiality
of any alleged false statement to a claim for payment.
Doc. No. 337. The court dismissed the counterclaims on
jurisdictional grounds. Id. The court denied a previous
motion by LMH for summary judgment which was
filed before the conclusion of discovery. Doc. No. 204.
This case is now before the court upon plaintiff ’s motion to alter or amend pursuant to Fed.R.Civ.P. 59(e).
Doc. No. 349.
I.

RULE 59(e) STANDARDS

Plaintiff does not argue a change in the law or new
facts. Therefore, plaintiff must show the need to correct
clear error or prevent manifest injustice to obtain relief
under Rule 59(e). Somerlott v. Cherokee Nation Distribs., Inc., 686 F.3d 1144, 1153 (10th Cir. 2012). “Clear
error” has been described as an arbitrary, capricious,
whimsical, or manifestly unreasonable judgment. Estate of McDermed by and through McDermed v. Ford
Motor Co., 2017 WL 1492931 * 1 (D. Kan. 4/26/2017)
(quoting Wright ex rel. Trust Co. of Kan. v. Abbott Labs.,
Inc., 259 F.3d 1226, 1236 (10th Cir. 2001)). A motion to
alter or amend has also been considered “appropriate
where the court has misapprehended the facts, a
party’s position, or the controlling law.” Servants of the
Paraclete v. Does, 204 F.3d 1005, 1012 (10th Cir. 2000).
This, however, does not invite the rehashing of previously addressed arguments or the presentation of new
legal theories or facts that could have been raised earlier. Id.

App. 58
II.

THE ORDER GRANTING SUMMARY JUDGMENT

The court granted summary judgment because
LMH sustained its burden of showing the absence of
any genuine issue of material fact. Celotex Corp. v.
Catrett, 477 U.S. 317, 323 (1986). LMH did so “by pointing out to the court a lack of evidence for the nonmovant on an essential element of the nonmovant’s
claim.” Adler v. Wal-Mart Stores, Inc., 144 F.3d 664, 671
(10th Cir. 1998). That element was materiality. Once
LMH met this burden, the onus shifted to plaintiff to
demonstrate that genuine issues remained for trial as
to materiality. See McCoy v. Meyers, 887 F.3d 1034,
1044 (10th Cir. 2018). The court found that plaintiff
failed to carry this burden.
Plaintiff ’s claims fall into two categories. One of
those categories involves LMH’s alleged submission of
quality of care data which incorporated false arrival
times for certain chest pain patients.1 LMH receives
1

Plaintiff alleged in its brief in opposition to summary judgment that:
LMH knowingly manipulated the apparent order of
timed patient events in medical records, so as to maximize Medicare reimbursement. In carrying out this
scheme, LMH knew that the Specifications Manuals instructed LMH to abstract the earliest event in the medical record as “arrival time.” So LMH made sure
electrocardiogram (“EKG”) times were the earliest
times appearing in the records of chest-pain patients.
Of course, these patients had necessarily arrived at the
hospital well before receiving an EKG. The proof is in
the proverbial pudding. LMH began reporting “zero”
minute arrival-to-EKG times in 2011.
Doc. 333, p. 1.

App. 59
higher reimbursement rates upon its Medicare
charges in return for reporting accurate information
for inpatient quality reports (“IQRs”) and outpatient
quality reports (“OQRs”). This is in accord with socalled “pay-for-reporting” programs. LMH also submits
forms (“DACA forms”) to the Government which attest
to the accuracy of the information LMH supplies for
IQR reports. Plaintiff has presented evidence that
some of that information which involved arrival times
was inaccurate because hospital staff took steps in
completing medical charts to make it appear that some
chest-pain patients arrived at the hospital later than
was correct and thus falsely represented that care was
administered more quickly after a patient’s arrival
than was actually the case.
Arrival times are also used to determine some
quality measures which influence LMH’s compensation under the Hospital Value Based Performance
(“HVBP”) program. This has been labelled a “pay-forperformance” program. Under the HVBP program, the
Government withholds a percentage from the total annual Medicare payments to all hospitals nationally,
and places it in a separate fund used to increase or decrease the reimbursement rate upon claims for payment in following years, depending upon performance
on certain measures calculated with IQR data. The
only quality measure relevant to the HVBP program
argued by plaintiff in the summary judgment pleadings under reconsideration is the AMI-8a measure for
fiscal year 2015. This measure involved whether heart
catheterization occurred within 90 minutes of arrival
time.

App. 60
The second category of alleged false claims related
to the attestation of employee anti-fraud education
methods exercised at LMH. Section 6032 of the Deficit Reduction Act (“DRA”), 42 U.S.C. § 1396a(a)(68),
and related regulatory guidance requires LMH, as a
condition for receiving Medicaid payments exceeding
$5 million per federal fiscal year, to attest that [ ] the
signees have read and complied with requirements to
educate employees and contractors with state and federal anti-fraud laws, administrative remedies, civil
and criminal penalties for false claims, and whistleblower protections. Plaintiff provided evidence that
LMH falsely attested to compliance with the antifraud education measures required by Section 6032 of
the DRA.
The court decided as to the LMH’s alleged arrival
time manipulations that plaintiff had not identified evidence showing that the misrepresented arrival times
affected or likely would affect the Government’s reimbursement decisions. Likewise, the court decided that
plaintiff could not identify evidence showing that
LMH’s statements of compliance with the DRA were
material to a reimbursement decision by the Government.
III. THE ARGUMENTS TO ALTER OR AMEND
Plaintiff first contends that the court misapprehended LMH’s arguments for summary judgment.
Plaintiff asserts that LMH did not argue in its summary judgment motion that plaintiff could not show

App. 61
that the alleged misrepresented arrival times impacted its Medicare reimbursement rates. The court
rejects this contention. The argument is presented in
general terms (e.g., Doc. No. 323, p. 12) and in specific
terms (e.g., Doc. No. 323, p. 24-26; Doc. No. 334, p.1).
See also, Doc. No. 334, p. 42 (“Duffy bears the burden of proving that incorrectly abstracted ‘arrival
times’ affects the amount of reimbursement that LMH
received from the federal government. Duffy has not
and cannot do so.”). Therefore, the court finds that it
has not misapprehended LMH’s arguments.
Plaintiff ’s main argument is that plaintiff and/or
LMH have presented evidence that reporting false arrival times would affect LMH’s Medicare reimbursement rate and that the attestations required by the
DRA were material to the Government’s payment decisions. This argument is supported by reference to evidence presented in opposition to LMH’s summary
judgment motion and to evidence and arguments
which were not presented in opposition to the motion.
The court must decide in this order whether by
granting summary judgment the court correctly determined that plaintiff failed to adduce enough evidence
to sustain the burden of proof as to materiality; that is,
whether a reasonable jury could infer the materiality
of the alleged false statements from plaintiff ’s evidence or whether such an inference would unduly rely
upon speculation.
There is a “rigorous” and “demanding” standard
for materiality in an FCA case which is not always too

App. 62
fact intensive to resolve on summary judgment. Universal Health Services, Inc. v. United States, ex rel. Escobar, 136 S.Ct. 1989, 2003 & 2004 n. 6 (2016)
(“Escobar”). Speculation may not be relied upon to create a fact issue in a FCA case or other cases. See United
States ex rel. McBride v. Halliburton Co., 848 F.3d
1027, 1034 (D.C. Cir. 2017) (FCA case); Pioneer Centres
Holding Co. Employee Stock Ownership Olan & Tr. v.
Alerus Fin., N.A., 858 F.3d 1324, 1334 (10th Cir. 2017)
(discussing general rule); Bird v. W. Valley City, 832
F.3d 1188, 1199 (10th Cir. 2016) (same). It is the court’s
view that plaintiff relies upon speculation or conjecture which makes materiality in this case too much of
a guess.
Plaintiff claims that her materiality argument regarding the false arrival times is supported by 44
statements of fact in the summary judgment pleadings. Doc. No. 350, p. 4. This is evidence which the court
considered when deciding the summary judgment motion. The court has again reviewed the statements of
fact and shall not alter or modify the court’s summary
judgment order. Many of the statements of fact refer to
broad statements regarding the obligation to report accurate and complete data to receive an enhanced reimbursement rate through a pay-for-reporting program.2
But, the duty to provide accurate and complete data as
outlined in testimony and regulations does not produce
a reasonable inference that perfect accuracy or perfect
2

Plaintiff sets out some of the statements on pp. 8-10 of Doc.
No. 350 and refers to the same or similar statements on pp. 1112.

App. 63
compliance with regulations is required to receive reimbursement enhancements via the Medicare pay-forreporting programs. See U.S. ex rel. Conner v. Salina
Regional Health Center, Inc., 543 F.3d 1211, 1219-21
(10th Cir. 2008) (Government does not require perfect
compliance as an absolute condition to receiving Medicare payments for services rendered). This is in part
because the Government recognizes that abstracting
information from patient charts is a burdensome and
complex task. See 73 Fed.Reg. 48434-01, 48627, 2008
WL 3833378 (Aug. 19, 2008).
The record before the court upon LMH’s summary
judgment motion did not contain evidence which
shows the alleged false arrival times affected a substantial amount of data when viewed in the total mix
of data submitted by LMH to the Government.3 Nor did
the record contain evidence showing how much the
false arrival times differed from the correct arrival
times. Under these circumstances, one can only speculate that the alleged inaccurate arrival times for some
chest-pain patients would be construed by a reasonable person as so significant and damaging to the

3

Plaintiff has submitted an expert witness report with the
motion to alter or amend. Doc. No. 350-1. This does not qualify as
“new evidence” and should not be considered upon a motion to
alter or amend as discussed at pp. 12-13 of this order. The expert
witness report indicates that “several” metrics are impacted by
misrecorded arrival times. Id. at p. 3. The number of metrics and
the significance of the impact upon those metrics from the alleged
misrepresented arrival times in this case is not discussed with
specificity.

App. 64
Government’s goals as to disqualify LMH from the
benefits of the pay-for-reporting programs.
Plaintiff references an administrative action
where LMH was warned that it could receive a reduced
reimbursement rate because it failed to submit infection data required by a pay-for-reporting program. Doc.
No. 350, p. 11. Such a penalty was imposed upon a different hospital and later affirmed by the court in
PAMC, Ltd. v. Sebelius, 747 F.3d 1214 (9th Cir. 2014).
The court does not believe this kind of omission is sufficiently analogous to the allegations in this case for a
reasonable factfinder to determine that LMH would
likely have been penalized because an unknown
amount of arrival time data was inaccurately recorded
and impacted a quality metric to an unknown degree.
In other words, plaintiff has not shown evidence that
the submission of data which may misrepresent arrival times or another data point to an unknown extent
is part of the mine run of cases where the Government
typically reduces Medicare reimbursement rates or implements some other penalty in an administrative or
judicial action.
Plaintiff asserts that compliance with the inpatient quality pay-for-reporting program is a statutory
requirement for a hospital to participate in the HVBP
program. Plaintiff, however, does not show that a reasonable person would consider LMH in material noncompliance of the pay-for-reporting program. More
importantly, plaintiff does not show some other factor
other than LMH’s alleged noncompliance with a statutory requirement for payment to support plaintiff ’s

App. 65
claim of materiality. Materiality may not be shown by
merely referring to a breach of a statutory requirement
for payment. Escobar, 136 S.Ct. at 2003-04.
Plaintiff relies upon the same speculation to argue
that the Government would find the attestations upon
the DACA forms material to its reimbursement of
LMH’s Medicare charges. The attestations are evidence that the provision of accurate information is part
of the bargain between LMH and the Government. The
court held in the summary judgment order that the
Government expects accurate information from LMH.
Doc. No. 337, p. 21. But, there is no proof that a reasonable person would find the level or degree of falsity alleged in this case was sufficiently substantial that the
Government would alter its reimbursement decisions.
Plaintiff argues that a key question is whether noncompliance is minor or substantial, not whether damages are minor or substantial. Doc. No. 350, p. 17
(citing Escobar, 136 S.Ct. at 2003 as stating that materiality “cannot be found where noncompliance is minor or insubstantial”). The court agrees. But, there is
no showing that the Government would consider
LMH’s alleged regulatory or statutory noncompliance
to be substantial in the context of LMH’s participation
in the Medicare program or the specific pay-for-reporting and pay-for-performance systems discussed in this
case.
Plaintiff also relies upon evidence that LMH’s reimbursement amounts were increased based upon its
HVBP performance score. This is not persuasive proof
of materiality because plaintiff does not show that the

App. 66
alleged false arrival times had a material impact upon
LMH’s performance score. Plaintiff refers to the AMI8a measure which was a factor, among others, used to
determine LMH’s performance score for fiscal year
2015. Arrival time is a data point used to determine
the AMI-8a score which gauged whether a heart catheterization was done within 90 minutes of a patient’s
arrival. Plaintiff has presented evidence that 72.22%
of the records LMH submitted to the Government for
that measure in fiscal year 2015 showed an arrival
time either the same or after a recorded EKG time.
Some of those records may have been “correct” even by
plaintiff ’s analysis, if for instance the patient received
an EKG during an ambulance trip to the hospital.
Some of the alleged “incorrect” records may not have
affected whether the 90-minute goal was attained. Unlike other cases, this is not a situation where arrival
time was a sole or significant determinant of a reimbursement rate. Cf., United States ex rel. Luke v.
Healthsouth Corp., 2018 WL 3186941 *6 (D. Nev.
6/28/2018) (materiality is sufficiently alleged where
complaint claims that defendant submitted manipulated disability scores which the Government used to
determine Medicare reimbursement rates leading to
$3,400 more per patient than comparable facilities);
United States ex rel. Poehling v. UnitedHealth Group,
Inc., 2018 WL 1363487 *9 (C.D. Cal. 2/12/2018) (materiality is sufficiently alleged where complaint claims
that defendant submitted and failed to delete inaccurate diagnostic codes which are a sole determinant of
Medicare risk adjustment payments). Here, plaintiff

App. 67
relies upon speculation to support the claim that the
false arrival times affected LMH’s HVBP score.
Plaintiff criticizes any reliance by the court upon
the Government’s payment history after the Government received knowledge of plaintiff ’s allegations. The
court maintains, as stated in the summary judgment
order, that this is “some” evidence against plaintiff ’s
claim of materiality. Doc. No. 337, p. 20. The primary
grounds for summary judgment, however, is the absence of evidence to support plaintiff ’s burden of proof
as to materiality. Cf., United States ex rel. Folliard v.
Comstor Corporation, 2018 WL 5777085 *7 (D.D.C.
11/2/2018) (denying Rule 59(e) relief in FCA case
where the court considered the government’s choice
not to intervene but primarily based decision upon
plaintiff ’s exclusive reliance upon non-compliance
with statutory requirements to show materiality).
Plaintiff has cited evidence presented in plaintiff ’s
response to the LMH’s first summary judgment motion. Doc. No. 350, pp. 22-26. This evidence was not argued by plaintiff in response to the summary judgment
motion now under reconsideration. Nor does it qualify
as new evidence. So, it should not be considered
grounds to alter or amend the court’s order. See Committee for First Amendment v. Campbell, 962 F.2d 1517,
1523 (10th Cir. 1992) (“ ‘When supplementing a Rule
59(e) motion with additional evidence, the movant
must show . . . that the evidence is newly discovered
[and] if the evidence was available at the time of the
decision being challenged, that counsel made a diligent
yet unsuccessful effort to discovery the evidence.’ ”)

App. 68
(quoting Chery v. Bowman, 901 F.2d 1053, 1057 n.6
(11th Cir. 1990)); see also Anderson v. Equifax Information Services LLC, 292 F.Supp.3d 1211, 1214 (D.
Kan. 2017) (a Rule 59(e) motion does not permit a
party to present facts that could have been raised earlier or a second chance to present a stronger case).
But, considering that evidence, the court is not
persuaded to deny summary judgment. The gist of the
evidence is that LMH Emergency Department employees were instructed that to maximize Medicare reimbursement the registration of chest pain patients
should be delayed until an EKG was obtained so that
the EKG time would be recorded as the patient’s arrival time. This would help LMH achieve a 3-minute
door-to-EKG time which LMH staff said was LMH’s
goal and a benchmark for greater or maximum Medicare reimbursement. From 2011 through 2014, LMH
was rewarded for its performance pursuant to the
HVBP program. For eleven quarters beginning in the
first quarter of 2011, LMH reported a median arrivalto-EKG time of zero minutes.
Plaintiff, however, does not link the door-to-EKG
time to a metric used to calculate LMH’s performance
score in the HVBP program. Indeed, in plaintiff ’s reply
brief, plaintiff states that the question of whether doorto-EKG was an HVBP measure is not at issue in this
suit. Doc. No. 352, at p. 6. Nor does this evidence show
that the “arrival times” which LMH recorded were so
inaccurate that a reasonable person could find without
speculation that the Government would have altered a

App. 69
pay-for-reporting reimbursement decision if it had
been aware of the inaccuracy.
Plaintiff closes the opening brief in support of the
motion to alter or amend by rehashing the arguments
favoring plaintiff ’s claim that the alleged false attestations of compliance with the antifraud education requirements of the DRA were material to the
Government’s reimbursement decisions.4 The court
shall maintain its holding to the contrary for the reasons stated at pp. 23-24 of Doc. No. 337.
Plaintiff ’s reply brief restates the arguments previously discussed in this order. The reply brief also
raises new arguments. Some of the new arguments are
contained at pp. 8-13 of Doc. No. 352 where plaintiff
discusses the purpose of pay-for-reporting programs
and pay-for-performance programs and the need to deter cheating. The court does not recall that these arguments were made in plaintiff ’s brief in opposition to
summary judgment or in the opening brief in support
of plaintiff ’s motion to alter and amend. They may be
rejected on that grounds [sic]. See Headrick v. Rockwell
4

Plaintiff asserts that it would be unprecedented for a court
to hold that a false statement made under penalty of perjury in
order to be eligible for Medicaid funds is not material. Doc. No.
350, p. 29. The court notes that U.S. ex rel. Conner v. Salina Regional Health, 543 F.3d 1211 (10th Cir. 2008) held that a Medicare cost report which contained language warning of criminal
penalties for misrepresentation or falsification of any information
(see 42 C.F.R. § 413.24(f)(4)(iv)(B)) was not material to the Government’s payment decisions under circumstances where there
were allegations of regulatory noncompliance contrary to what
was certified in the cost report.

App. 70
Intern. Corp., 24 F.3d 1272, 1277-78 (10th Cir. 1994);
Thurston v. Page, 931 F.Supp. 765, 768 (D. Kan. 1996);
see also, Folliard, at *7 (Rule 59(e) motion is too late to
raise national trade interests for the first time as a materiality argument).
But, considering the arguments would not change
the court’s ruling. As already stated, the court agrees
that the provision of accurate information is part of the
bargain between plaintiff and the Government in the
pay-for-reporting and pay-for-performance programs.
But, as stated, perfection need not be required to avoid
a FCA claim or to deter cheating. It is the court’s finding that plaintiff has not submitted sufficient evidence
to create a genuine issue of fact as to the materiality of
the alleged false arrival times or of the attestations referred to in plaintiff ’s claims. No reasonable juror
could find without speculation on the record before the
court that the alleged inaccuracies and false attestations were material to the Government’s payment decisions.
IV.

CONCLUSION

For the above-stated reasons, the court shall deny
plaintiff ’s motion to alter or amend. Doc. No. 349.
IT IS SO ORDERED.

App. 71
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
-----------------------------------------------------------------------------------------

UNITED STATES OF
AMERICA, ex rel. STACEY L.
JANSSEN, as Special
Administrator of the Estate
of Megen Corin Duffy,
Plaintiff Counter Defendant Appellant,
v.

No. 19-3011
(D.C. No. 2:14CV-02256-SAC)
(D. Kan.)

LAWRENCE MEMORIAL
HOSPITAL,
Defendant - Appellee.
-----------------------------------------------------------------------------------------

ORDER
-----------------------------------------------------------------------------------------

(Filed Mar. 30, 2020)
Before TYMKOVICH, Chief Judge, MURPHY,
and CARSON, Circuit Judges.
-----------------------------------------------------------------------------------------

Appellant’s petition for rehearing is denied.
The petition for rehearing en banc was transmitted to all of the judges of the court who are in regular
active service. As no member of the panel and no judge

App. 72
in regular active service on the court requested that
the court be polled, that petition is also denied.
Entered for the Court
/s/ Christopher M. Wolpert
CHRISTOPHER M. WOLPERT,
Clerk

App. 73
31 U.S.C. § 3729. False claims
(a) LIABILITY FOR CERTAIN ACTS.(1) IN GENERAL.-Subject to paragraph (2), any
person who(A) knowingly presents, or causes to be presented, a false or fraudulent claim for
payment or approval;
(B) knowingly makes, uses, or causes to be
made or used, a false record or statement
material to a false or fraudulent claim;
(C) conspires to commit a violation of subparagraph (A), (B), (D), (E), (F), or (G);
(D) has possession, custody, or control of
property or money used, or to be used, by
the Government and knowingly delivers,
or causes to be delivered, less than all of
that money or property;
(E) is authorized to make or deliver a document certifying receipt of property used,
or to be used, by the Government and, intending to defraud the Government,
makes or delivers the receipt without
completely knowing that the information
on the receipt is true;
(F) knowingly buys, or receives as a pledge of
an obligation or debt, public property
from an officer or employee of the Government, or a member of the Armed Forces,
who lawfully may not sell or pledge property; or

App. 74
(G) knowingly makes, uses, or causes to be
made or used, a false record or statement
material to an obligation to pay or transmit money or property to the Government, or knowingly conceals or knowingly
and improperly avoids or decreases an obligation to pay or transmit money or property to the Government,
is liable to the United States Government
for a civil penalty of not less than $5,000
and not more than $10,000, as adjusted
by the Federal Civil Penalties Inflation
Adjustment Act of 1990 (28 U.S.C. 2461
note; Public Law 104-410), plus 3 times
the amount of damages which the Government sustains because of the act of
that person.
(2) REDUCED DAMAGES.-If the court finds
that(A) the person committing the violation of
this subsection furnished officials of the
United States responsible for investigating false claims violations with all information known to such person about the
violation within 30 days after the date on
which the defendant first obtained the information;
(B) such person fully cooperated with any
Government investigation of such violation; and
(C) at the time such person furnished the
United States with the information about

App. 75
the violation, no criminal prosecution,
civil action, or administrative action had
commenced under this title with respect
to such violation, and the person did not
have actual knowledge of the existence of
an investigation into such violation, the
court may assess not less than 2 times the
amount of damages which the Government sustains because of the act of that
person.
(3) COSTS OF CIVIL ACTIONS.-A person violating this subsection shall also be liable to the
United States Government for the costs of a
civil action brought to recover any such penalty or damages.
(b) DEFINITIONS.-For purposes of this section(1) the terms “knowing” and “knowingly”(A) mean that a person, with respect to information(i)

has actual knowledge of the information;

(ii) acts in deliberate ignorance of the
truth or falsity of the information;
or
(iii) acts in reckless disregard of the truth
or falsity of the information; and
(B) require no proof of specific intent to defraud;
(2) the term “claim”-

App. 76
(A) means any request or demand, whether
under a contract or otherwise, for money
or property and whether or not the
United States has title to the money or
property, that(i)

is presented to an officer, employee,
or agent of the United States; or

(ii) is made to a contractor, grantee, or
other recipient, if the money or property is to be spent or used on the Government's behalf or to advance a
Government program or interest,
and if the United States Government(I) provides or has provided any
portion of the money or property
requested or demanded; or
(II) will reimburse such contractor,
grantee, or other recipient for
any portion of the money or
property which is requested or
demanded; and
(B) does not include requests or demands for
money or property that the Government
has paid to an individual as compensation for Federal employment or as an income subsidy with no restrictions on that
individual's use of the money or property;
(3) the term “obligation” means an established
duty, whether or not fixed, arising from an express or implied contractual, grantor-grantee,

App. 77
or licensor-licensee relationship, from a feebased or similar relationship, from statute or
regulation, or from the retention of any overpayment; and
(4) the term “material” means having a natural
tendency to influence, or be capable of influencing, the payment or receipt of money or
property.
(c) EXEMPTION FROM DISCLOSURE.-Any information furnished pursuant to subsection (a)(2)
shall be exempt from disclosure under section 552
of title 5.
(d) EXCLUSION.-This section does not apply to
claims, records, or statements made under the Internal Revenue Code of 1986.

App. 78
42 U.S.C. § 1395l(t)(17): For purposes of paragraph
(3)(C)(iv) for 2009 and each subsequent year, in the
case of a subsection (d) hospital (as defined in section
1395ww(d)(1)(B) of this title) that does not submit, to
the Secretary in accordance with this paragraph, data
required to be submitted on measures selected under
this paragraph with respect to such a year, the OPD
fee schedule increase factor under paragraph (3)(C)(iv)
for such year shall be reduced by 2.0 percentage points.

42 U.S.C. §1395ww(b)(3)(B)(viii)(I): For purposes of
clause (i) for fiscal year 2007 and each subsequent fiscal year, in the case of a subsection (d) hospital that
does not submit, to the Secretary in accordance with
this clause, data required to be submitted on measures
selected under this clause with respect to such a fiscal
year, the applicable percentage increase under clause
(i) for such fiscal year shall be reduced by 2.0 percentage points (or, beginning with fiscal year 2015, by onequarter of such applicable percentage increase (determined without regard to clause (ix), (xi), or (xii))). Such
reduction shall apply only with respect to the fiscal
year involved and the Secretary shall not take into account such reduction in computing the applicable percentage

42 U.S.C. §1395ww(o)(1)(A): Subject to the succeeding provisions of this subsection, the Secretary shall
establish a hospital value-based purchasing program

App. 79
(in this subsection referred to as the “Program”) under
which value-based incentive payments are made in a
fiscal year to hospitals that meet the performance standards under paragraph (3) for the performance period for
such fiscal year (as established under paragraph (4)).

42 U.S.C. §1395ww(o)(1)(C)(2): The term “hospital”
shall not include, with respect to a fiscal year, a hospital—
(I) that is subject to the payment reduction under
subsection (b)(3)(B)(viii)(I) for such fiscal year.

42 C.F.R. § 412.64(d)(2)(i): In the case of a “subsection (d) hospital,” as defined under section
1886(d)(1)(B) of the Act, that does not submit quality
data on a quarterly basis to CMS, in the form and manner specified by CMS, the percentage increase in the
market basket index (as defined in § 413.40(a)(3) of
this chapter) for prospective payment hospitals is reduced (A) For fiscal years 2005 and 2006, by 0.4 percentage points; and
(B) For fiscal year 2007 through 2014, by 2 percentage points.
(C) For fiscal year 2015 and subsequent fiscal
years, by one-fourth.

